               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Benchmarking Sustainability
             Contracting Practices

         Management Advisory Report




                                              August 8, 2012

Report Number CA-MA-12-002
                                                                         August 8, 2012

                                            Benchmarking Sustainability Contracting
                                                                          Practices

                                                        Report Number CA-MA-12-002



BACKGROUND:
The U.S. Postal Service’s Supply             Postal Service is making strides to
Management organization has defined          achieve its goal of incorporating
its sustainability goals in the Strategic    sustainability efforts and improvements
Sustainability Performance Plan. The         to its purchasing processes. We
Postal Service states that its mission is    identified some innovative sustainability
to build socially responsible and            practices at other agencies related to
sustainable supply chains and defines        achieving sustainability goals, policies
its community and environmental              and clauses, and training that the Postal
responsibility as focusing on green,         Service should consider as it moves
sustainable, and lean supply chains. To      forward in achieving its supply
accomplish this mission, Supply              management sustainability goals.
Management will focus on refining
policies, practices, and contract            WHAT THE OIG RECOMMENDED:
requirements to include sustainable          We recommended that management, as
attributes and business practices.           part of their continued sustainability
                                             efforts, develop sustainability contract
Our objective was to identify best           clauses and use, as guidance, those
practices from other Federal Acquisition     clauses provided by benchmarked
Regulation (FAR)-exempt federal              agencies that are consistent with the
agencies to improve the Postal               Postal Service’s sustainability goals.
Service’s supply management                  Training should be provided to
purchasing policies and processes            contracting officials and relevant
related to sustainability.                   business partners, once the clauses are
                                             implemented.
WHAT THE OIG FOUND:
The Postal Service is generally              Link to review the entire report.
comparable with other FAR-exempt
agencies in enhancing its sustainability
efforts for contracting policies and
practices. The Postal Service has
established procurement policies
addressing sustainability and has
proactively set performance goals
related to sustainability. The agencies
we benchmarked are at various levels of
incorporating sustainability in their
supply management process. The
August 8, 2012

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – Benchmarking Sustainability
                           Contracting Practices
                           (Report Number CA-MA-12-002)

This report presents the results of our review of the sustainability best practices at
Federal Acquisition Regulation-exempt agencies (Project Number 11YG044CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Deborah Giannoni-Jackson
    Trent Ensley
    Douglas P. Glair
    Corporate Audit and Response Management
Benchmarking Sustainability Contracting Practices                                                                   CA-MA-12-002



                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Sustainability Plans and Goals ........................................................................................ 2

Contracting Sustainability Policies and Clauses .............................................................. 3

Training ........................................................................................................................... 4

Recommendation ............................................................................................................ 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Benchmarking Survey Results .................................................................... 8

Appendix C: Sustainability Questionnaire ....................................................................... 9

Appendix D: Sustainability Clauses ............................................................................... 12

Appendix E: Management’s Comments ........................................................................ 15
Benchmarking Sustainability Contracting Practices                                                    CA-MA-12-002




Introduction

This report presents the results of our review of the U.S. Postal Service’s purchasing
processes and policies related to sustainability (Project Number 11YG044CA000). The
report is part of a value proposition between the Postal Service’s vice president, Supply
Management, and the U.S. Postal Service Office of Inspector General (OIG). Our
objective was to identify the best practices of other federal agencies that are also
exempt from complying with the Federal Acquisition Regulation 1 (FAR) to improve the
Postal Service’s supply management purchasing policies and processes related to
sustainability. This review addresses strategic and operational risk.

Executive Order 134232 instructs federal agencies to conduct their environmental,
transportation, and energy-related activities in an environmentally, economically and
fiscally sound, integrated, continuously improving, efficient, and sustainable manner.
Executive Order 135143 was a follow-up to Executive Order 13423 and requires
95 percent of new contract actions, including task and delivery orders, to be energy and
water efficient, bio-based,4 environmentally preferable, and non-ozone depleting, and
contain recycled content or be non-toxic or be a less toxic alternative. None of the
agencies included in the benchmarking, including the Postal Service, is required to
comply with these orders.

The Postal Service’s Supply Management organization is dedicated to enhancing
sustainability. Part of its mission is to build socially responsible and sustainable supply
chains and define its community and environmental responsibility as focused on green,
sustainable, and lean supply chains. To accomplish its mission, Supply Management
will focus on refining policies, practices, and contract requirements to include
sustainable attributes and business practices where cost effective, relevant, and
practical.

Conclusion

The Postal Service is generally comparable with other FAR-exempt agencies in
enhancing its sustainability efforts for contracting policies and practices. The Postal
Service has established procurement policies addressing sustainability and has




1
  Uniform policies and procedures for acquisition that regulate most executive agencies. The Postal Service and the
agencies we benchmarked against are not bound by this regulation.
2
  Executive Order 13423, Strengthening Federal Environmental, Energy, and Transportation Management,
January 2007.
3
  Executive Order 13514, Federal Leadership in Environmental, Energy, and Economic Performance, October 2009.
4
  Bio-based products are composed of biological products or renewable agricultural material.
                                                           1
Benchmarking Sustainability Contracting Practices                                                      CA-MA-12-002



proactively set performance goals related to sustainability. The agencies we
benchmarked5 are at various levels of incorporating sustainability in their supply
management process. Specifically, three agencies have a formal policy addressing
sustainable procurement. The other two agencies did not have sustainability policies,
but one incorporates sustainable contracting practices when it makes good business
sense.

The benchmarked agencies have the following similarities with the Postal Service:

   Each agency was exempt from meeting the objectives of Executive Orders 13423
    and 13514; however, in addition to the Postal Service, three of the five have
    included portions of the orders or similar goals (such as increasing sustainable
    contracting actions) to the extent possible, considering their feasibility and impact on
    the business.

   Three of the five agencies were in the beginning stages of obtaining sustainability
    data from their suppliers. The Postal Service is currently obtaining environmentally
    preferred product data for purchases made using the EBuy2 system6 and are
    exploring the potential of collecting data for off-catalog purchases (purchases not
    made through EBuy2).

   Two of the five agencies have considered incorporating sustainability into their best
    value determination7 when appropriate for specific commodities; however, as Supply
    Management officials have also noted, it would be difficult to evaluate and verify
    information provided by suppliers. In addition, it could place an undue burden on
    their suppliers, so they decided not to include mandatory sustainability factors as a
    part of determining best value.

See Appendix B for the detailed results of our benchmarking survey.

The Postal Service is making strides toward achieving its goal of incorporating
sustainability efforts and improvements to its purchasing processes. We identified some
innovative sustainability practices at other agencies related to achieving sustainability
goals, policies, clauses, and training that the Postal Service should consider as it moves
forward in achieving its supply management sustainability goals.

Sustainability Plans and Goals

Three agencies have incorporated Executive Order 13514 requirements into their
sustainability goals. To help accomplish these goals, one agency requires its suppliers

5
  Benchmarked agencies include National Railroad Passenger Corporation (AMTRAK), Bonneville Power
Administration (BPA), Federal Aviation Administration (FAA), Federal Deposit Insurance Corporation (FDIC), and
Tennessee Valley Authority (TVA).
6
  EBuy2 automates the Postal Service’s buying process from order to payment.
7
  Postal Service defines best value as the outcome that provides the optimal combination of elements, such as lowest
total cost of ownership, technology, innovation and efficiency, assurance of supply, and quality relative to the Postal
Service’s needs.


                                                           2
Benchmarking Sustainability Contracting Practices                             CA-MA-12-002



to complete a sustainability questionnaire when submitting a request for information or a
request for a proposal. The questionnaire asks potential contractors to provide
information regarding its environmental policies, practices, performance, and data on its
available products or services. The agency uses this information to qualitatively
measure and assess the environmental impact of supplier goods and services in
sustaining its operations. See Appendix C for a list of questions included in the
sustainability questionnaire.

The Postal Service’s Strategic Sustainability Performance Plan8 provides Supply
Management with three sustainability goals: (1) increase the number of environmentally
preferable products available for purchase on the EBuy2 catalog system by 50 percent,
(2) require all suppliers with contract commitments greater than $500,000 to provide
sustainability data, and (3) include standard Postal Service sustainability clauses in all
new contract actions.

The Postal Service has also made sustainability part of its Delivering Results,
Innovation, Value, and Efficiency initiative that includes reducing its energy
consumption; and engaging employees, customers, and suppliers. To meet these goals,
the Postal Service is currently enhancing the EBuy2 system to reflect environmentally
preferable products and actively engaging in our benchmarking of similar federal
agencies to obtain their best practices. Further, the Postal Service has an ongoing
initiative to capture off-catalog, environmentally preferable product sustainability data.
Examples include migrating from an Excel-based data capture process to an enhanced
web-based system and building a sustainability module to capture off-catalog
sustainability data. As these efforts evolve and come to fruition, the Postal Service
should also consider using tools, such as supplier surveys in obtaining pertinent
sustainability data.

Contracting Sustainability Policies and Clauses

Three of the five benchmarked agencies indicated they have incorporated sustainability
into their policies and standard contract clauses. The policies included procuring
products and services that promote energy and water efficiency, recycled content, and
low- or non-toxic chemicals. We noted that clause relevance depends on the mission
and commodity purchase activity inherent to each agency and not all clauses will be
relevant for all agencies. Agencies also incorporated clauses into their procurement
activities addressing the requirements of Executive Order 13514. As an example, one
clause regarding energy efficiency requires that applicable purchases be ENERGY
STAR-certified or be placed in the upper 25th percentile of efficiency for similar
products. Two other examples are clauses that require the use of bio-based and
non-ozone depleting items, as designated by U.S. Department of Agriculture and the
U.S. Environmental Protection Agency. These clauses also provide specific guidance to
suppliers and helpful clarification. See Appendix D for a detailed list of sustainability
clauses.


8
    Strategic Sustainability Performance Plan, June 3, 2011.


                                                               3
Benchmarking Sustainability Contracting Practices                                 CA-MA-12-002



The Postal Service’s Supplying Principles and Practices (SP&Ps) currently contain
limited guidance related to sustainability.9 Specifically, they state that promoting an
environmentally responsible supply base furthers the Postal Service’s business
interests. The SP&Ps do not currently contain sustainability clauses; however, Supply
Management plans to develop additional clauses, which should be warranted from a
business sense, relevant, consistent with existing policies, and practical, given resource
constraints. The Postal Service’s Strategic Sustainability Performance Plan sets a goal
to include sustainability clauses in all new contract actions, beginning in 2015. The
Postal Service might benefit by adopting specific clauses similar to those used by
benchmarked agencies to provide detailed requirements for its suppliers.

Training

Two agencies developed training to educate contracting personnel on sustainable
acquisition requirements, and one agency plans to train contracting officer
representatives and business partners to increase program awareness. The training
materials these agencies use focus on information related to the overall strategy of the
organization, reporting requirements, overall vision regarding sustainability, supply
chain opportunities, and long-term benefits. The Postal Service has not yet included
training as a part of its contracting sustainability plans but indicated it will consider
training when incorporating sustainability in its SP&Ps or other purchasing policies. The
Postal Service also uses the Supply Chain Academy Education Framework, which
provides general training on supply chain sustainability issues. Providing supply
management sustainability training not only to Postal Service contracting personnel but
also to its business partners could provide valuable insight and help establish the
importance of incorporating sustainability into both the Postal Service and contractor
purchasing processes.

Recommendation

We recommend the vice president, Supply Management, as part of the continued
sustainability efforts:

1.     Develop sustainability contract clauses and use, as guidance, those clauses
       provided by benchmarked agencies that are consistent with the Postal Service’s
       sustainability goals. Training should be provided to contracting officials and relevant
       business partners, once the clauses are implemented.




9
    SP&Ps, December 12, 2011.


                                                    4
Benchmarking Sustainability Contracting Practices                           CA-MA-12-002




Management’s Comments

Management agreed with the findings and recommendation. Specifically, management
stated their Strategic Sustainability Performance Plan established a goal to develop and
include sustainability clauses in all new contract actions in 2015. Management will use
the results of this report to establish relevant policy and clauses for use in Postal
Service contracts. As a part of their policy development and change process,
management will offer knowledge sharing sessions to purchasing specialists and
clients, in coordination with the publication of any new or updated policies. See
Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective action should resolve the issues identified in the report. Management
requested that we close the recommendation based on their on-going actions to
develop sustainability clauses, and this recommendation will be closed with issuance of
this report.




                                                    5
Benchmarking Sustainability Contracting Practices                              CA-MA-12-002



                             Appendix A: Additional Information

Background

The Postal Service’s Green Purchasing Plan defines sustainability as ―buying green,
being green, and selling green.‖ In an effort to embody this definition, the Postal Service
has made enhancing sustainability one of the main objectives in its Five-Year Strategic
Plan for 2009-2013 and appointed its first vice president of Sustainability in 2008. In
addition, the Postal Service’s 2011 Strategic Sustainability Performance Plan describes
its sustainability goals and implementation initiatives. The Postal Service has
15 corporate sustainability goals and has assigned Supply Management with the
following three goals: (1) increase the number of environmentally preferable products,
(2) require all contractors with current contract commitments of $500,000 or more to
provide sustainability data, and (3) include standard sustainability clauses in all new
contracts.

Supply Management is also dedicated to enhancing sustainability in its procurement
practices and has defined its goals to do so in various policies and plans. In the Supply
Management Three-Year Strategic Plan, 2010-2012, the Postal Service states that its
mission is to build socially responsible and sustainable supply chains and define its
community and environmental responsibility as focusing on green, sustainable, and lean
supply chains. To accomplish this mission, Supply Management will focus on refining
policies, practices, and contract requirements to include sustainable attributes and
business practices. Supply Management has incorporated sustainability into its SP&Ps
by explaining that the Postal Service is committed to encouraging its suppliers to
promote and enhance environmental responsibility when conducting business with the
Postal Service. They have also partnered with the OIG in this review of the best
practices of other FAR-exempt agencies to improve Supply Management’s purchasing
policies and processes related to sustainability.

Executive Order 13423, signed by President Bush in January 2007, instructs federal
agencies to conduct their environmental, transportation, and energy-related activities
under the law in support of their respective missions, in an environmentally,
economically and fiscally sound, integrated, continuously improving, efficient, and
sustainable manner. Executive Order 13514, signed by President Obama in
October 2009, was a follow-up to Executive Order 13423 and requires 95 percent of
new contract actions — including task and delivery orders — to be energy- and
water-efficient, bio-based, environmentally preferable, non-ozone depleting, contain
recycled content, or be non-toxic or be a less toxic alternative.

Objective, Scope, and Methodology

Our objective was to identify the best practices of other FAR-exempt federal agencies to
improve Supply Management’s purchasing policies and processes related to
sustainability.




                                                    6
Benchmarking Sustainability Contracting Practices                               CA-MA-12-002



As part of our value proposition with the vice president, Supply Management, we
selected the following government entities that are also exempt from the FAR:

   BPA — provides power to its Pacific Northwest customers and constituents.

   TVA — provides electricity, manages the Tennessee River system, and provides
    environmental stewardship.

   FDIC — insures deposits, manages receiverships, and examines and supervises
    financial institutions for safety, soundness, and consumer protection.

   AMTRAK — provides intercity travel connections to and between the nation’s key
    metropolitan areas.

   FAA — regulates civil aviation, develops aviation technology, and operates air traffic
    control.

To accomplish our objective, we, with Postal Service officials, surveyed each agency to
gain insight on how sustainability is incorporated into its contracting policies and
conducted interviews with those who were available to discuss best practices and
knowledge sharing. We also surveyed and interviewed Postal Service officials to obtain
their progress on the sustainability goals and reviewed Postal Service and
benchmarked agency sustainability documentation.

We conducted this review from August 2011 through August 2012, in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on July 18, 2012, and included their comments where appropriate.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                                    7
          Benchmarking Sustainability Contracting Practices                                                   CA-MA-12-002




                                     Appendix B: Benchmarking Survey Results



                                                          POSTAL        AGENCY        AGENCY       AGENCY        AGENCY       AGENCY
                    Questions
                                                          SERVICE          A             B            C             D            E
Required by law to follow Executive Orders                  NO            NO            NO           NO            NO           NO
13423 and 13514?
Have purchasing policy statements regarding                  NO            YES           YES          YES            NO        NO
sustainability?
Use sustainability provisions and/or clauses in              YES           YES           YES          YES            NO        NO
                             10
solicitations and contracts?
Sustainability used as an evaluation factor when             YES           YES           YES           NO            NO        NO
evaluating proposals?11
Sustainability factored into contract award                  YES           YES           YES           NO            NO        NO
decisions?
Required to provide reports related to                       YES           YES           YES          YES            NO        NO
sustainability to agency head?
Organization’s suppliers report sustainability               YES           NO            YES          YES            NO        YES
data to the agency?
Work with suppliers to develop new ways to                   YES           NO            NO           YES            NO        YES
increase sustainability?
Participate in collaborative sustainability                  YES           NO            NO           YES            NO        YES
innovation with customers?
Researched the cost of implementing                          NO            YES           YES           NO            NO        NO
sustainability in contracts?
Determined the goodwill branding associated                  NO            NO            NO            NO           YES        NO
with implementing sustainability in procurement
practices?




          10
             Agencies noted that provisions/clauses are used for specific acquisition categories when deemed appropriate by
          the contracting officer.
          11
             Agencies stated they use sustainability as a factor, when deemed appropriate by the contracting officer.


                                                                   8
Benchmarking Sustainability Contracting Practices                                                  CA-MA-12-002




                              Appendix C: Sustainability Questionnaire

TVA uses supplier surveys to determine the extent of its supplier’s green policies,
practices, and products. Questions included in its survey are listed as follows (the full
survey is on TVA’s public website):12

1. The environmental & sustainability profile for your company:

A. Please detail and explain any notices of environmental violations occurring within the
   last 2 years.

B. Please provide details about any third-party green certifications your organization has
   received or any programs you are working toward.

C. Check all that apply regarding greenhouse gas (GHG) emissions at your
  organization:
      __GHG emissions are not currently measured.
      __GHG emissions are measured and trended.
      __A voluntary commitment to reduce GHG emissions has been established.
      __A GHG emissions reduction program is in place.
      __GHG emissions are publicly reported.

D. Check all that apply regarding energy consumption at your organization:
      __Energy consumption is not currently measured and trended.
      __Energy consumption is measured and trended.
      __A voluntary program to improve energy efficiency is in place.
      __An energy efficiency goal has been established.
      __Renewable energy is utilized as part of meeting energy needs.
      __Has your energy consumption been changing (increasing or decreasing) over
        the past 5 years? Explain.

E. Check all that apply regarding non‐hazardous waste generation (e.g., commercial
   and industrial) at your organization:
      __Non‐hazardous waste generation is not measured and trended.
      __Non‐hazardous waste generation is measured and trended.
      __Voluntary commitments to reduce non‐hazardous waste generation are in
         Place.
      __Progress toward reducing non‐hazardous waste generation is publicly
         communicated.
      __Recycling and/or reuse of non‐hazardous waste is utilized as part of meeting
         waste goals.
      __Recycling and/or reuse of non‐hazardous waste is measured and trended.


12
     https://supplier.tva.gov/Documents/Supplier_Environmental_Sustainability_RFP_Questions.pdf.


                                                          9
Benchmarking Sustainability Contracting Practices                            CA-MA-12-002




F. How do you incorporate any recycled materials, particularly from post-consumer
   sources, into your production or manufacturing processes? Check the options that
   apply.
       __ Post‐consumer source are end products generated by consumers that are
          diverted from the solid waste stream for re‐use in the manufacture of a new
          product.
       __ Post‐consumer waste is distinguished from pre‐consumer waste, which is the
          re-introduction of manufacturing scrap (such as trimmings from paper
          production, defective aluminum cans, etc.) back into the manufacturing
          process.
       __Other (please explain).

2. The integration of environmental considerations and best practices into
standard business practice:

G. Are your supply chain transactions electronically transmitted and received? (e.g.,
electronic invoices and payments). If not, are you willing to start?

H. Are your organization’s environmental performance results reported externally? (e.g.,
website, published in a sustainability/environmental report, included in an annual report
or other published document)

3. The ability to offer innovative products/materials to improve environmental
performance:

I. Describe any opportunities where your organization can collaborate with us to
improve our environmental performance (e.g., redefining shipment frequencies,
packaging requirements, shipment sizes, material reduction, etc.).

4. Leadership and sharing of learning and best practices with employees,
suppliers, and customers, as applicable:

J. How does your organization currently work with its suppliers on their environmental
performance and the impact of climate change on their business? (e.g., through
purchasing requirements, education, training).

K. Describe any program you offer similar to a Product Take Back Program. (TVA
defines a Product Take Back Program as an environmentally preferred approach where
the supplier assumes physical responsibility for products and/or packaging at the end of
their useful lives for re-manufacture, refurbishment or safe disposal. Examples include:
electronics, furniture, power tools, batteries, cardboard, etc.).




                                                    10
Benchmarking Sustainability Contracting Practices                                   CA-MA-12-002




5. Please list and describe your green products and/or services.
Products and services meeting TVA’s green specifications, as identified in TVA’s Green
Products List, are TVA’s preferred choice. The list is available at
http://supplier.tva.gov/Green_Products.html.

Product/Service                  Description                 If this product or service
                                                             meets TVA’s green
                                                             specifications, according to
                                                             TVA’s Green Products List,
                                                             please identify the
                                                             appropriate green code or
                                                             codes (as listed on the
                                                             Green Products List).
                                                             Leave blank, if not
                                                             applicable.
Sample: Electric Motors          energy efficient 1-500 hp   B - Energy Star
                                 motor




                                                    11
Benchmarking Sustainability Contracting Practices                             CA-MA-12-002




                                   Appendix D: Sustainability Clauses

BPA is one agency that incorporates sustainability clauses into its contracting actions. A
list of its sustainability clauses is below. Additional details on BPA’s clauses can be
obtained from its website.13

Clean Air and Water

Facilities listed on the EPA List of Violating Facilities shall not be used in the
performance of this contract. The contractor agrees to meet Clean Air and Water
standards as identified in 42 U.S.C. 7401 et seq., Executive Order 11738, and any
implementation plan described in 42 U.S.C. 1342 as well as local government with
pretreatment regulations (33 U.S.C. 1317). The contractor shall comply with all
requirements of the Clean Air Act (42 U.S.C. 7414) and the Clean Water Act (33 U.S.C.
1318) relating to inspection, monitoring, entry, reports and information, and all
regulations and guidelines.

Ozone-Depleting Substances

(a) In the performance of this contract, the Contractor shall advance the use of non -
 ozone depleting products that are EPA-designated items unless—
     (1) The product cannot be acquired—
        (A) Competitively within a time frame providing for compliance with the contract
        performance schedule;
        (B) Meeting contract performance requirements; or
        (C) At a reasonable price.
(b) ―Ozone-depleting substance,‖ as used in this clause, means any substance the
Environmental Protection Agency designates in 40 CFR Part 82 as—
     (1) Class I, including, but not limited to, chlorofluorocarbons, halons, carbon
        tetrachloride, and methyl chloroform; or
     (2) Class II, including, but not limited to, hydrochlorofluorocarbons.
(c) The Contractor shall label products which contain, or are manufactured with, ozone-
depleting substances in the manner and to the extent required by 42 U.S.C. 7671j (b),
(c), and (d) and 40 CFR Part 82, Subpart E, as follows:
Warning
Contains (or manufactured with, if applicable) *_______, a substance(s) which harm(s)
public health and environment by destroying ozone in the upper atmosphere.

The Contractor shall insert the name of the substance(s).




13
     http://www.bpa.gov/corporate/business/bpi/.


                                                    12
Benchmarking Sustainability Contracting Practices                             CA-MA-12-002



Refrigeration Equipment

The Contractor should make every effort to comply with the applicable requirements of
Sections 608 and 609 of the Clean Air Act (42 U.S.C. 7671g and 7671h) as each or
both apply to this contract. For more information on Section 608 (general refrigeration),
see: http://www.epa.gov/ozone/title6/downloads/Section_608_FactSheet2010.pdf. For
more information on Section 609 (motor vehicle air conditioning), see:
http://www.epa.gov/ozone/title6/downloads/Section_609_FactSheet2010.pdf.

Energy Efficiency in Energy

(a) ―Energy-Efficient Product‖ means a product that meets Department of Energy and
EPA criteria for use of the Energy Star trademark label; or is in the upper 25 percent of
efficiency for all similar products as designated by the Department of Energy’s Federal
Energy Management Program.
(b) Unless otherwise approved in writing by the Contracting Officer, the Contractor and
its subcontractors shall make every effort to ensure that energy-consuming products are
Energy-Efficient Products at the time of contract award, for products that are—
      (1) Delivered; or acquired by the Contractor for BPA use or for performing services
      at a BPA facility; or
      (2) Specified in the design of a building or work, or incorporated during its
      construction, renovation, or maintenance.
(c) Information about these products is available for—
      (1) ENERGY STAR® at http://www.energystar.gov/products; and
      (2) FEMP at
        http://www1.eere.energy.gov/femp/procurement/eep_requirements.html.

EPA Designated Items

(a) In the performance of this contract, the Contractor shall advance the use of products
containing recovered materials as designated by the EPA’s Comprehensive
Procurement Guideline (CPG) program unless the product cannot be acquired—
      (1) Competitively within a timeframe providing for compliance with the contract
      performance schedule;
      (2) Meeting contract performance requirements; or
      (3) At a reasonable price.
(b) Information about this requirement is available at EPA’s CPG web site,
http://www.epa.gov/osw/conserve/tools/cpg/database.htm. The list of EPA designated
items is available at http://www.epa.gov/osw/conserve/tools/cpg/index.htm.

Bio-Based Product

(a) In the performance of this contract, the Contractor shall advance the use of bio-
 based products that are United States Department of Agriculture (USDA)-designated
items unless—
     (1) The product cannot be acquired—



                                                    13
Benchmarking Sustainability Contracting Practices                             CA-MA-12-002



        (A) Competitively within a time frame providing for compliance with the contract
        performance schedule;
        (B) Meeting contract performance requirements; or
        (C) At a reasonable price.
(b) Information about this requirement and these products is available at
www.usda.gov/biopreferred.




                                                    14
Benchmarking Sustainability Contracting Practices              CA-MA-12-002



                           Appendix E: Management’s Comments




                                                    15
Benchmarking Sustainability Contracting Practices        CA-MA-12-002




                                                    16
